                                                   NATIONAL
                                                    OFFICE OF SCIENCE
                                                              INSPECTOR
                                                                      FOUNDATION
                                                                        GENERAL
                                                      OFFICE OF INVESTIGATIONS

 $$$#..
   4
    0
       &ao
                                              CLOSEOUT MEMORANDUM

Case Number: A06060028                                                                       Page 1 of 1



          Proactive examination of several collaborative proposals~using a commercial plagiarism finder
          system identified extensive texts seemingly identical to text available on the web, with authors
          other than the PI on the proposals. A closer examination revealed that some putative source
          documents were authored by PIS and coPIs on other submissions associated with the
          collaborative proposals.2 Further, the proposal submissions stem from long-standing
          collaborations within a university center3 from which multiple position papers, technical reports,
          and white papers have appeared, each with varying authors, but containing common thematic
          texts. Text in the proposals was also searched manually using a web search query of signature
          phrases drawn from the text. No links to texts authored by non collaborators was found. No
          support for duplicated texts in these proposals could therefore be established

          Accordingly, this case is closed.




           '
           2
               Redacted.
               Redacted.
           '   Redacted.



N S F OIG Form 2 ( 1 1/02)
